OFFICE OF AUDIT
REGION 6
FORT WORTH, TX




 State of Louisiana Department of Children and
       Family Services, Baton Rouge, LA,
   Recovery Act Homelessness Prevention and
           Rapid Re-Housing Program




2012-FW-1014                         September 7, 2012
                                                                    Issue Date: September 7, 2012

                                                                    Audit Report Number: 2012-FW-1014




TO:            Cheryl S. Breaux
               Director, Office of Community Planning and Development, 6HD


FROM:          Gerald R. Kirkland
               Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT:       The State of Louisiana, Baton Rouge, LA, Generally Complied With Recovery
                  Act Homelessness Prevention and Rapid Re-Housing Program


       Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the State of Louisiana Department of
Children and Family Services’ American Recovery and Reinvestment Act of 2009 Homelessness
Prevention and Rapid Re-Housing Program.

        HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

        The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post
its publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

        If you have any questions or comments about this report, please do not hesitate to call me
at (817) 978-9309.




                                                Office of Audit (Region 6)
                                 819 Taylor Street, Suite 13A09, Fort Worth, TX 76102
                                      Phone (817) 978-9309, Fax (817) 978-9316
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                         September 7, 2012
                                         The State of Louisiana Department of Children and Family
                                         Services, Baton Rouge, LA, Homelessness Prevention and
                                         Rapid Re-Housing Program



Highlights
Audit Report 2012-FW-1014


 What We Audited and Why                   What We Found

In accordance with our goal to review    The State generally ensured that its Recovery Act
funds provided under the American        disbursements to local governments were eligible.
Recovery and Reinvestment Act of         However, some of the disbursements were not
2009, we reviewed the State of           adequately supported. This condition occurred
Louisiana’s Department of Children and   because the State’s review did not always identify
Family Services’ Homelessness            issues related to missing documentation when it
Prevention and Rapid Re-Housing          processed reimbursement requests from its local
Program. Our objectives were to          governments. As a result, the State incurred $10,547
determine whether the State ensured      in unsupported costs.
that (1) Recovery Act disbursements to
local governments were eligible and       Additionally, the State did not always ensure that
supported and (2) program participants    program participants’ eligibility to receive program
were eligible to receive assistance in    assistance was adequately supported. Specifically, 20
accordance with program requirements.     of 37 program participant files reviewed lacked
                                          required documentation supporting income
                                          verification; housing status; and needs, rent
  What We Recommend
                                          reasonableness, and lead-based paint determinations.
                                          This condition occurred because the State did not did
We recommend that the U. S.               not ensure that its local governments and subgrantees
Department of Housing and Urban           established adequate control procedures to ensure that
Development’s (HUD) Director of           they adequately supported their eligibility
Community Planning and Development determinations. As a result, the State paid $31,217 in
require the State to (1) support or repay program assistance for participants whose eligibility
$41,764 in unsupported costs. Since the was not adequately documented.
State’s Recovery Act program ends July
31, 2012, we did not provide a
recommendation to address the causes
regarding expenditure and eligibility
violations.
                          TABLE OF CONTENTS
Background and Objectives                                                         3

Results of Audit
     Finding 1: Some of the State’s Disbursements Were Not Adequately Supported   4
     Finding 2: Program Participants’ Files Lacked Adequate Documentation to      6
                Support Eligibility

Scope and Methodology                                                             10

Internal Controls                                                                 12

Appendixes
  A. Schedule of Questioned Costs                                                 13
  B. Auditee Comments and OIG’s Evaluation                                        14




                                          2
                      BACKGROUND AND OBJECTIVES

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009, which included $1.5 billion for the Homelessness Prevention and Rapid Re-Housing
Program administered by the U. S. Department of Housing and Urban Development’s (HUD)
Office of Community Planning and Development. HUD distributed funding for the program
based on the formula used for the Emergency Shelter Grants program. The purpose of the
program is to provide homelessness prevention assistance for households that would otherwise
become homeless, many due to the economic crisis, and rapid re-housing assistance for persons
who are homeless as defined by Section 103 of the McKinney Vento Homeless Assistance Act
(42 U.S.C. (United States Code) 11302).

HUD allows grantees the discretion to develop prevention or rapid re-housing programs that
meet locally defined needs. However, HUD also expects that those resources will be targeted
and prioritized to serve households that are most in need of temporary assistance and are most
likely to achieve stable housing, whether subsidized or unsubsidized, after the program
concludes. The program provides temporary financial assistance and housing relocation and
stabilization services to individuals and families who are homeless or would be homeless but for
this assistance. In addition to financial assistance and housing relocation and stabilization
services, other eligible program activities include data collection and evaluation and
administrative services.

HUD entered into a grant agreement with the State of Louisiana, Department of Children and
Family Services, awarding more than $13.5 million to the State for the program. HUD allowed
the State to distribute funds to local governments to administer the program directly or distribute
all or part of its grant amounts to private nonprofit organizations to carry out program activities.
As part of the grant agreement, HUD required the State to ensure that each entity that
administered or received all or a portion of its program grant funds fully complied with the
program requirements.

To assist in implementing the program, the State executed agreements with 23 local governments
that enlisted the assistance of 45 faith-based or nonprofit organizations as subgrantees to carry
out program activities. In addition, 1 of the 45 subgrantees used its own subgrantees to assist it
in carrying out program activities, adding an additional administrative layer. Based upon the
agreements between the State and the local governments, the State disbursed program funds, on a
reimbursement basis, after the local governments submitted their payment requests along with
supporting documentation. As of January 31, 2012, the State had spent more than $10.9 million
and had served 10,788 participants as of March 31, 2012. As of August 16, 2012, the State had
spent all but about $27,000 of its more than $13.5 million award. The State was allowed to draw
down funds for up to 90 days after the grant period ended, provided that these funds were used to
pay for eligible costs that were incurred by July 31, 2012, the 3-year expenditure deadline.

Our objectives were to determine whether the State ensured that (1) Recovery Act disbursements
to local governments were eligible and supported and (2) clients were eligible to receive program
assistance in accordance with program requirements.

                                                 3
                                RESULTS OF AUDIT


Finding 1: Some of the State’s Disbursements Were Not Adequately
Supported
The State generally ensured that its disbursements were eligible and adequately supported.
However, 2 of 15 disbursement files reviewed lacked supporting documentation; specifically,
copies of canceled checks and payroll documents. This condition occurred because the State’s
reviews did not always identify issues related to missing supporting documentation when it
processed reimbursement requests from its local governments. As a result, the State incurred
$10,547 in unsupported costs.


 The State Did Not Always
 Maintain Adequate Supporting
 Documents

              Although the State generally ensured that its program costs were eligible and
              disbursed in accordance with program requirements, it did not always maintain
              adequate file documentation to support disbursements. Specifically, our review of
              15 disbursement files applicable to 5 local governments totaling more than $1.8
              million determined that 2 files had missing supporting documentation, as described
              below.

              Missing supporting documentation – Federal Register 5307-N-01, issued under the
              Recovery Act, required the State to follow 2 CFR (Code of Federal Regulations)
              Part 225 for its payment requests. To be allowable, 2 CFR Part 225 required the
              State to ensure that all costs were adequately documented. Further, the State
              required the local governments to submit copies of canceled checks for rent and
              utility assistance payments, along with other documentation such as lease
              agreements, eviction notices, and rent reasonableness determinations. However, in
              some instances, the files either lacked payroll documentation to support the amounts
              reimbursed for labor or did not include a copy of the subgrantee’s canceled check for
              a reimbursed payment. Table 1 summarizes the deficiencies.

              Table 1
                                                         Missing

                  Sample        Unsupported       Payroll      Canceled
                  number           costs         documents    check copies
                      1                $5,559        X             X
                      2                 4,988                      X
               Totals                $10,547         1             2




                                                4
             Because of these issues, costs totaling $10,547, related to these two disbursements
             totaling more than $342,000 were unsupported.

The State Reviews Did Not
Always Identify Unsupported
Costs

             While the State established invoice processing procedures, those procedures did
             not always identify unsupported costs. The State disbursed program funds to the
             local governments on a reimbursement basis. The State’s processing procedures
             included a review by the program monitor staff of the invoices and supporting
             documentation. The program monitors were to obtain additional information or
             supporting documentation when needed. Once their reviews were completed, the
             program monitors sent the invoices to the program coordinator for further review
             and signature approval. The program coordinator then sent the invoices to the
             fiscal department for payment. However, in the two cases cited, the reviews did
             not identify all instances in which documentation was inadequate or missing.

Conclusion

             Although the State implemented procedures for processing invoices for
             reimbursement, its reviews did not always identify missing or inadequate support
             documentation, resulting in $10,547 in unsupported costs. Since the State’s
             Recovery Act program ends July 31, 2012, we did not recommend a corrective
             action for its invoice review process.

Recommendation

             We recommend that HUD’s Director of Community Planning and Development
             require the State to

             1A. Support the $10,547 disbursed for the two Recovery Act disbursements that
                 were not adequately supported or repay any amounts that it cannot support
                 to the U. S. Treasury from non-Federal funds.




                                               5
Finding 2: Program Participants’ Files Lacked Adequate
Documentation to Support Eligibility
Program participants’ files did not always include adequate documentation to support eligibility
for program assistance. Specifically, 20 of 37 participant files reviewed lacked supporting
documentation, such as income certification, adequate housing status verification, and other
required documentation. This condition occurred because the State did not ensure that its local
governments and subgrantees, that made program eligibility determinations, established adequate
control procedures to ensure that eligibility determinations were adequately supported. As a
result, the State paid $31,217 in program assistance for participants whose eligibility was not
adequately documented.


    Participant Files Did Not
    Comply With Documentation
    Standards

                 UNITY of Greater New Orleans and its subgrantees1 processed files for the City
                 of New Orleans. SMILE Community Action Agency processed files for St.
                 Martin Parish. A review of 17 participant files processed by UNITY, with
                 disbursements totaling $55,124, determined that 4 did not contain sufficient
                 documentation to support eligibility. Further, 16 of 20 files processed by SMILE,
                 with disbursements totaling $21,859, did not contain sufficient documentation to
                 support eligibility.

                 Upon application, Federal Register 5307-N-01 required applicants to meet the
                 following criteria for eligibility under the program:

                         Income – Household income had to be at or below 50 percent of area
                          median income.
                         Housing status – Household members had to be either homeless to receive
                          rapid re-housing assistance or at risk of losing their housing to receive
                          homelessness prevention assistance.
                         Homeless but for program assistance – Participants had to demonstrate the
                          lack of (1) appropriate subsequent housing options and (2) financial
                          resources and support networks needed to obtain immediate housing or
                          remain in their existing housing.

                 Participants could receive assistance for either homelessness prevention or rapid
                 re-housing. Once they were determined eligible and approved for assistance,
                 HUD2 required a recertification of the eligibility of program participants at least
1
     UNITY was a City subgrantee, but UNITY used other subgrantees to aid it in carrying out program activities.
     UNITY’s subgrantees were Family Services of Greater of New Orleans, Neighborhood Empowerment Network
     Association, Project Lazarus, Covenant House, VIA LINK, and Collaborative Solutions.
2
     Referring to HUD’s Eligibility Determination and Documentation Guidance, revised March 2010, page 5


                                                       6
                 once every 3 months for all households that received ongoing assistance using the
                 same criteria used for the initial eligibility determination. In addition, program
                 guidance required lead-based paint inspections for properties built before 1978 if
                 a child age 6 or younger would be residing in the unit. HUD considered files
                 without sufficient documentation to support eligibility noncompliant.

                 However, UNITY and SMILE’s participant files did not always meet support
                 documentation standards, as shown in tables 2 and 3 below.
Table 2
                                               UNITY documentation deficiencies
                                               Adequate housing      Adequate needs      Avoided other
Sample     Unsupported       Adequate income          status            assessment       documentation       Recertification
number        costs           documentation?    documentation?       documentation?          errors?        documentation?
  1               $6,195            No                 Yes                  No                 No                  No
  2                6,026            Yes                Yes                  No                 Yes                 Yes
  3                1,976            Yes                Yes                  Yes                Yes                 No
  4                1,186            Yes                Yes                  Yes                No                  No
                             1 without         0 without            2 without           2 with other        3 without
                             adequate income   adequate housing     adequate needs      documentation       adequate
                             documentation     status               assessment          errors              recertification
 Total          $15,383                        documentation        documentation                           documentation


Table 3
                                                    SMILE documentation deficiencies
  Sample                                                                          Adequate needs            Avoided other
  number      Unsupported        Adequate income         Adequate housing            assessment             documentation
                 costs            documentation?       status documentation?      documentation?                errors?
     1             $1,360               Yes                      No                      Yes                      No
     2                 690              Yes                      No                      Yes                      No
     3              1,800               Yes                     Yes                      No                       No
     4              1,100               Yes                     Yes                      No                       No
     5              1,785               No                      Yes                      Yes                      No
     6              1,100               No                      Yes                      No                       Yes
     7                 659              Yes                      No                      Yes                      No
     8                 168              Yes                     Yes                      Yes                      No
     9                 266              Yes                     Yes                      Yes                      No
     10                452              No                       No                      No                       No
     11             1,050               Yes                     Yes                      Yes                      No
     12             1,164               Yes                     Yes                      No                       Yes
     13                601              Yes                     Yes                      No                       No
     14             1,614               Yes                      No                      Yes                      No
     15                600              No                      Yes                      Yes                      Yes
     16            $1,425               Yes                     Yes                      No                       Yes
                               4 without adequate      5 without adequate      7 without adequate        12 with other
                               income                  housing status          needs assessment          documentation
   Total           $15,834     documentation           documentation           documentation             errors


                 As related to income documentation, files lacked third-party verification of
                 income and self-declarations of income. In four instances, household income was
                 calculated based on the head of household’s income only, although there were
                 other adult household member(s) whose income should have been assessed and
                 documented and was not.




                                                            7
                  In regards to housing status documentation, 4 files lacked lease agreements for the
                  evicting person and 1 file lacked a completed lease agreement needed to support
                  the client’s housing status eligibility. In addition, files contained housing status
                  classification discrepancies. Specifically, although six participants received
                  assistance under the rapid re-housing category,3 supporting documentation
                  showed that these participants should have received assistance under the
                  homelessness prevention category.4

                  As to the needs assessments documentation, 9 files lacked a complete assessment
                  of the applicants’ need for program assistance, including an assessment of the
                  applicant’s other housing options and financial resources (such as bank
                  statements), to show that the applicant would have been homeless but for program
                  assistance. Although we did not question the eligibility of participants, in some
                  instances, files included only a note indicating that the program participant did not
                  have any other housing options, financial resources, or support networks5 without
                  an explanation of how the determination was made. This information would have
                  been helpful in assessing the adequacy and consistency of the needs assessments.

                  The files also contained other documentation errors. For instance, 1 file lacked an
                  adequate rent reasonableness determination, and 13 lacked sufficient
                  documentation6 to support that lead-based paint testing was conducted when
                  required. In addition, in three instances, a 3-month recertification was not
                  properly documented as required.

                  Unsupported costs for disbursements to these 20 participants totaled $31,217.

    The State Did Not Always
    Ensure That Adequate Controls
    Were Established

                  While the State conducted monitoring of its local governments and subgrantees, it
                  did not always ensure that the local governments and subgrantees that made
                  program eligibility determinations established adequate program controls.




3
     The classification discrepancies are separate from the inadequate housing status documentation issues. Since
     the housing status file documentation was an acceptable type for participant eligibility under the homelessness
     prevention category, we did not question those costs because of the housing status misclassification. However,
     these same files were deemed unsupported due to other documentation issues as reflected in the preceding
     tables.
4
     The file contained documentation such as eviction notices, indicating that the participant had to leave the
     residence.
5
     Case notes were acceptable according to HUD’s documentation standards.
6
     Although Lead Screening Worksheets were either included in the file or later provided by the State, age
     determination documentation for the selected housing units were not included in the file to justify not
     performing lead-based paint inspections.


                                                          8
             St. Martin Parish did not execute a written agreement with SMILE – St. Martin
             Parish did not execute a written agreement with SMILE. A binding agreement
             would have outlined program requirements, performance expectations, and the
             control policy and procedure requirements. In addition, six other subgrantees
             administered the program without a written agreement with their respective local
             government. Of the six subgrantees, the State monitored four between April 25,
             2011 and December 08, 2011. However, the lack of a written agreement
             increased the chances that SMILE, as well as other subgrantees that did not have
             executed agreements, would process the files incorrectly.

             UNITY and its subgrantees did not follow program guidance – The State
             monitored UNITY in October and December 2011. According to the State, the
             City of New Orleans also monitored UNITY; however, the City did not provide
             monitoring reports but rather only the dates on which the monitoring occurred.
             Although UNITY developed policies and procedures for use by it and its
             subgrantees, it did not always follow those policies and procedures or ensure that
             its subgrantees followed them when determining participant eligibility.

Conclusion

             Because the State did not ensure that its local governments and subgrantees
             established needed control procedures, it paid $31,217 in program assistance for
             20 participants whose eligibility was not adequately supported. Executing written
             agreements and periodic monitoring may have prevented the unsupported
             disbursements. Since the State’s Recovery Act program ends July 31, 2012, we
             did not recommend a corrective action regarding the local governments’ and
             subgrantees’ internal control procedures.

Recommendations

             We recommend that HUD’s Director of Community Planning and Development
             require the State to

             2A. Provide supporting documentation for the 20 clients or repay $31,217 to the
                 U. S. Treasury from non-Federal funds.




                                              9
                         SCOPE AND METHODOLOGY


We conducted our audit at the State’s office in Baton Rouge, LA, and the HUD Office of Inspector
General’s (OIG) offices in New Orleans and Baton Rouge, LA. We performed our audit between
January and June 2012.

To accomplish our objective, we reviewed

      The State’s
           o Recovery Act-related obligations and expenditures,
           o Organizational chart and written policies and procedures for the program,
           o Supporting documentation for payment of 15 local government invoices including
               subgrantees’ reimbursement requests,
           o Quarterly and annual performance reports, and
           o Monitoring letters to the local governments and internal audit reports conveying
               program monitoring findings.
      Relevant criteria governing the program, including Recovery Act regulations, the Code of
       Federal Regulations, program laws and policies, HUD’s guidance regarding the program,
       the grant agreement between HUD and the State including the substantial amendment,
       contract agreements between the State and the local governments, and contract agreements
       between the local governments and the subgrantees providing direct services to participants.
      A random, nonstatistical sample of 40 client files.

We also interviewed appropriate HUD program, State, and subgrantee staff members.

The State made 767 program disbursements to 23 local governments totaling more than $10.9
million. For our disbursement review, we selected 15 disbursements totaling more than $1.8
million. To select the 15 disbursements, we first identified the 5 local governments that received
the largest amount of funding and then selected the 3 largest disbursements for each of them.
We reviewed the disbursements to determine whether the State’s Recovery Act expenditures were
eligible and supported. Through file reviews, we determined that the disbursement data were
generally reliable.

To determine client eligibility, we selected 2 of 45 subgrantees based on high-risk determinations
and then randomly selected 20 participant files relative to each subgrantee, for a total of 40
participant files. Of the 40 participants, 3 did not receive any monetary assistance; thus, were
not included in our review results. Therefore, our review was comprised of the remaining 37
participant files. We conducted file reviews to determine whether participants met program
eligibility requirements and whether eligibility determinations were adequately supported. We
obtained participant data, which included client names and identification numbers. We also
obtained separate data for individual participant total assistance amounts. We determined that the
participant data were generally reliable; however, there were limitations to the data for participant
assistance amounts. Specifically, through comparison of the computer-processed data with
supporting documentation, we found some minor discrepancies in the amount of program



                                                 10
assistance. We were able to obtain and verify the correct program assistance amounts for those few
participants through other sources. We concluded that the computer-processed data were generally
reliable for our audit objectives.

Our audit scope generally covered July 30, 2009, through January 31, 2012. We expanded the
scope as needed to accomplish our audit objectives. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




                                                11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

        Effectiveness and efficiency of operations,
        Reliability of financial reporting, and
        Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal control was relevant to our audit
               objectives:

                  Controls to ensure that (1) funds were disbursed in accordance with program
                   guidelines and (2) participants met program eligibility requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

                  The State did not ensure that local governments and subgrantees established
                   control procedures to ensure compliance with program laws, regulations, and
                   documentation standards when determining participant eligibility (finding 2).




                                                12
                                              APPENDIXES

Appendix A

                        SCHEDULE OF QUESTIONED COSTS

                                Recommendation                     Unsupported 1/
                                    number
                                         1A                                  $10,547

                                         2A                                    31,217

                               Total                                         $41,764




1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or activity when we
     cannot determine eligibility at the time of the audit. Unsupported costs require a decision by HUD program
     officials. This decision, in addition to obtaining supporting documentation, might involve a legal interpretation
     or clarification of departmental policies and procedures.




                                                          13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                    Auditee Comments


             August 17, 2012


             Gerald R. Kirkland, Regional Inspector General for Audit
             U.S. Department of Housing and Urban Development
             Office of the Inspector General
             Office of Audit (Region 6)
             819 Taylor Street, Suite 13A09
             Forth Worth, TX 76102

             RE: DCFS Homelessness Prevention and Rapid Re-housing Program

             Dear Mr. Kirkland:

             The following is submitted in response to your request dated July 25, 2012 in
             reference to the aforementioned audit. The Department of Children & Family
             Services (DCFS) concurs-in-part with regard to the findings identified. As
             such, the following discloses DCFS’s concurrences, non-concurrence and
             corrective actions as applicable:

Comment 1    Finding #1: Some of the State’s Disbursements Were Not Adequately
             Supported:

             DCFS does not concur with this finding, as the State (DCFS) offers supporting
             documentation as noted:

             • Sample #1: detailed breakdown of September 2010 payroll expenditures,
             payment request summary, payroll transaction detail sheet, payroll direct
             deposit EFT confirmation for 9/1/10, payroll direct deposit EFT confirmation
             for 9/15/10, breakdown of life insurance payment, cancelled check for life
             insurance payment, breakdown of health insurance, cancelled check for health
             insurance, Louisiana Workman’s Compensation invoice 9/1/10, and Louisiana
             Workman’s Compensation cancelled check.




                                            14
            • Sample #2: checks from the local government supporting the salary cost.
            The checks were issued from Society of St. Vincent de Paul.

            • Sample #3: the State’s subsequent review identified “other allowable cost”
            included in the financial assistance category which accounts for the
            discrepancies noted.

            • Sample #4: the State’s subsequent review identified “other allowable cost”
            included in the financial assistance category which accounts for the
            discrepancies noted. Given such, the State does not concur, having
            demonstrated the questioned cost of $15,420 allowable and supported.

            Finding #2: Program Participants’ Files Lacked Adequate Documentation to
            Support Eligibility:

Comment 2   DCFS concurs in-part with this finding. The audit references HUD’s
            Eligibility Determination and Documentation Guidance, revised August 2011
            as governing criterion. DCFS has determined that the intake dates of the
            audit sample fall under three governing criterion as follows: HUD Notice of
            Funding Availability Guidance July 2009; HUD Guidance Document March
            2010; and HUD Document Guidance August 2011. Given such, DCFS
            assessed the identified sample exceptions with regard to the applicable
            governing criterion and available documentation at the State and contractor
            level (rather than only at the sub-contractor level); as required by HUD
            Guidance of 2009, 2010, and 2011.

            Revised exceptions are as follows:




                                          15
            Given such, the State determined $20,380 allowable and supported; amending
            the question costs to $14,444.

Comment 3   Additionally, DCFS has conducted file review of the 8 sub-grantees identified
            for not having an executed written agreement. DCFS’s review reflects 4
            rather than 8 sub-grantees without said agreements. DCFS has visited the 4
            noncompliant sub-grantees to offer training, technical assistance, and
            monitoring to ensure the applicable participant eligibility was adequately
            supported and that participants received assistance under the correct program
            category.

            DCFS is committed to offering effective oversight of the $13.5 million
            granted by U.S. HUD, in the pursuit of providing homelessness prevention
            and re-housing assistance. DCFS will maintain ongoing monitoring of its
            State Office oversight, in addition to training and implementation at the
            contractor and sub-contractor levels. Monitoring oversight will reiterate
            eligibility determination and documentation requirements. Moreover,
            oversight will include periodic sample reviews of client file documentation
            requirements to promote compliance.

            Please advise in the event that additional clarification and/or information are
            required.

            Sincerely,

            //Signed//

            Suzy Sonnier
            Secretary




                                            16
                         OIG Evaluation of Auditee Comments

Comment 1   Based upon a review of additional documentation provided by the State after the
            exit conference, we agree that the State sufficiently supported disbursements for
            samples 1 and 2. Thus, we removed the associated questioned costs from the
            report. For samples 3 and 4, the State asserted that its subsequent review
            identified other allowable costs; however, the State did not provide any additional
            details identifying the nature of those allowable costs or provide supporting
            documentation, such as canceled checks and payroll documents, to support its
            claim. Therefore, we did not remove the questioned costs for samples 3 and 4
            from the report. The State should provide its final supporting documentation to
            HUD's staff, which will assist the State with resolving recommendation 1A.

Comment 2   We agree that the program was governed by three criterion based upon the intake
            dates of the sampled participants. As such, we reconsidered the deficiencies
            initially identified for 23 sampled participant files in relation to the applicable
            governing criteria and reviewed the additional supporting documentation provided
            by the State. In addition to the nine exceptions that the State concurred with, we
            determined that eleven other sampled participant disbursements remained
            unsupported, due to a lack of sufficient supporting documentation. We revised
            our conclusions and questioned costs, as applicable, and included the final
            determinations in the report. The State should provide its final supporting
            documentation to HUD's staff, which will assist the State with resolving
            recommendation 2A.

Comment 3   The State asserted that four rather than eight other subgrantees (excluding
            SMILE) did not have executed written agreements and provided additional
            documentation to support its claim. Based upon a review of the additional
            documentation, we reduced the number that did not have executed agreements to
            six. The State did not provide written agreements but rather board resolutions, for
            the other two subgrantees that the State believed was compliant.

            The State also asserted that it had conducted technical assistance and monitoring
            visits for those subgrantees without written binding agreements; but did not
            provide supporting documentation, such as the monitoring letters, to show that it
            had monitored/visited 2 of those subgrantees. However, since the State’s
            Recovery Act program ended July 31, 2012 and resources were no longer
            available, we removed recommendation 2B, suggesting that the State perform file
            reviews for the other subgrantees without written agreements, from the report.




                                            17
